                           UNCLASSIFIED

        United States Department of State
      and the Broadcasting Board of Governors
                Office of Inspector General




              Report of Inspection


      The International

    Broadcasting Bureau’s

Office of Performance Review

   Report Number ISP-IB-06-37, May 2006




                               IMPORTANT NOTICE
  This report is intended solely for the official use of the Department of State or the
  Broadcasting Board of Governors, or any agency or organization receiving a copy
  directly from the Office of Inspector General. No secondary distribution may be
  made, in whole or in part, outside the Department of State or the Broadcasting
  Board of Governors, by them or by other agencies or organizations, without prior
  authorization by the Inspector General. Public availability of the document will
  be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
  Improper disclosure of this report may result in criminal, civil, or administrative
  penalties.



                            UNCLASSIFIED

                                        UNCLASSIFIED





                                 TABLE OF CONTENTS




KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

EXECUTIVE DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

PERFORMANCE REVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

     Research . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

     Performance Review Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

     Compliance Concerns . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

     Performance Review Scoring . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

     Performance Review Scores and Budgeting . . . . . . . . . . . . . . . . . . . . . . . . 15

RESOURCE MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

     Information Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

FORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

PRINCIPAL OFFICIAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25





                                            UNCLASSIFIED

                                       UNCLASSIFIED





                                 KEY JUDGMENTS

•	 The International Broadcasting Bureau’s (IBB) Office of Performance Re-
   view provides quality control by evaluating programs, and recommending
   improvements in the programming of the Voice of America’s (VOA) broad-
   cast services, the Office of Cuba Broadcasting’s (OCB) Radio and TV Marti,
   and in IBB support to those broadcasts.
•	 The performance rating scores that the Office of Performance Review
   assigns have minimal effect on strategic decisions the Broadcasting Board of
   Governors (BBG) reaches through its annual Language Service Reviews and
   budget priorities.
•	 Performance rating scores also have minimal effect on IBB senior manage-
   ment in its strategic planning and decision-making, and serve primarily as a
   quality control process. Problem-solving discussions and action items that
   result from the program reviews of broadcast services more effectively
   improve broadcast services’ program quality.
•	 The Office of Performance Review should provide to IBB’s senior manage-
   ment a quarterly prioritized list of its most important outstanding recommen-
   dations to underscore the necessity for their implementation.
•	 IBB should prioritize significant remaining action items and provide the
   information to BBG for consideration during Language Service Reviews.
•	 The director is seeking to increase the office’s capability to evaluate television
   broadcasting and other media in support of BBG’s transformation into a
   multi-media broadcast service.
•	 The Office of Performance Review analysts’ use of complete English-
   language back-translations or of contracted language-qualified co-reviewers
   would more fully address all quality criteria for evaluating radio broadcasts.
     The inspection took place in Washington, DC, between January 19 and March
10, 2006. Thomas R. Carmichael (team leader), Andrea M. Leopold (deputy team
leader), Martha Goode, and Tim C. Fitzgerald conducted the inspection.




OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006   1 .

                                       UNCLASSIFIED
                              UNCLASSIFIED





2 .   OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006


                              UNCLASSIFIED
                                       UNCLASSIFIED





                                          CONTEXT


    BBG is an independent federal agency responsible for all U.S. government and
U.S. government-funded, non-military, international broadcasting. BBG oversees
the federal broadcast entities VOA and OCB, and manages its grantees: Radio Free
Europe/Radio Liberty (RFE/RL), Radio Free Asia (RFA), and the Middle East
Broadcasting Networks (MBN), which is comprised of Radio Sawa and Alhurra
TV. The International Broadcasting Bureau (IBB) of BBG provides day-to-day
broadcast transmission support services for all the broadcasters.

    IBB manages VOA and OCB’s Radio and TV Marti and the IBB support
offices, including the Office of Engineering and Technical Services, the Office of
Management, and the Office of Program Support. The program support unit
includes the offices of Marketing and Program Placement, Public Affairs, and
Performance Review. The Office of Performance Review provides quality control
through annual reviews of VOA’s 44 language services and OCB’s Radio and TV
Marti. In addition, the Office of Performance Review conducts spot checks of
certain broadcasts in response to inquiries from BBG and IBB.

     BBG has been assessing broadcast quality for decades and has methodologies
and organizational structures for that purpose. Prior to the Government Perfor-
mance and Results Act of 1993 and the formation of IBB in 1994, there was an
Office of Program Review in VOA. In 1994, the Office of Program Review was
established under IBB. In 2002, the Offices of Program Review and Research were
combined in a new Office of Performance Review to link performance evaluation
with research. The IBB research director directs market research for VOA and
OCB, and oversees research projects for, or in cooperation with, the grantee broad-
cast organizations. The grantees are responsible for directing their own program
evaluations and research.

    Since the end of the Cold War and with the proliferation of technology and
broadcast systems worldwide, BBG has been broadcasting to listeners and viewers
in a more complex, competitive environment. New formats and distribution
channels are necessary to target and capture audiences that now have more media
choices.




OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006   3 .

                                       UNCLASSIFIED
                                     UNCLASSIFIED



          Marrying the Mission to the Market, BBG’s Strategic Plan for 2002-2007, provides
      a common strategy for the broadcasting entities. Congress has charged BBG with
      determining, at the highest strategic level, which language services and broadcast
      entities it will support. Legislatively-mandated1 annual Language Service Reviews
      assist BBG in reviewing, evaluating, and determining, in consultation with the
      Secretary of State, which language services should be added, enhanced, or deleted.

           Within that strategic framework, the Office of Performance Review’s goal at its
      implementation level is to ensure that OCB’s and VOA’s language services’ broad-
      casts maintain and improve overall performance quality and, wherever it’s appropri-
      ate, carry out a market-based broadcasting strategy. Accordingly, it reviews each
      language service annually. Overall performance is statistically measured through a
      scoring process that includes data from external language-qualified regular listeners
      or viewers, and from internal Performance Review analysts. Performance review
      scores using this data are calculated and then included in one-page summaries of
      each language service in BBG’s annual Language Service Review briefing book.
      The summaries include a chart with about 19 variables. The score from the perfor-
      mance review is one of these variables. The performance review scores are also
      included in a different format in reports to the Office of Management and Budget
      (OMB), including BBG’s Performance and Accountability Report.

          In addition to the scores, the Office of Performance Review’s principal func-
      tion regarding quality control of programming is to direct the formulation of an
      action plan with suggestions and recommendations for improvement for the lan-
      guage service and IBB’s support elements. These recommendations are not bind-
      ing, but because they have been arrived at by consensus of the parties involved,
      they are usually complied with when possible within the tasked elements’ budget
      and strategic plans. There is a three-month follow-up period following the review,
      during which the Office of Performance Review monitors compliance with the
      recommendations contained in the action plan.

           The Office of Performance review’s 16-person staff includes the IBB Research
      Director and three research analysts, who direct audience research carried out for
      use in the Office of Performance Review’s evaluations. This research is necessary
      to develop and carry out a market-based broadcast strategy. The Office’s FY 2006
      budget includes $1.872 million for salaries and benefits and $1.923 million for
      general operating expenses; about $1.8 million in the operating budget is for target



      1
       U.S. International Broadcasting Act of 1994, as amended by the Foreign Affairs Restructuring and Re-
      form Act of 1998.


4 .          OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006


                                     UNCLASSIFIED
                                       UNCLASSIFIED



area research. The Office of Performance Review relies heavily on BBG’s Interna-
tional Audience Research Projects contract for annual broadcast service research
projects, such as determining audience size and characteristics, and listener reac-
tion and preferences in a particular target area. That five-year contract has varied
between $3 million and $5 million annually.




OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006   5 .

                                       UNCLASSIFIED
                              UNCLASSIFIED





6 .   OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006


                              UNCLASSIFIED
                                       UNCLASSIFIED





                          EXECUTIVE DIRECTION


    The Office of Performance Review’s director is a Senior Executive Service
officer who has 30 years of broadcast management experience. He has held his
current position since 2002 and is credited with developing broadcast performance
standards and new criteria for evaluating television programs.

    The director has excellent relationships throughout BBG. The director’s staff
and peers said his collegial manner and depth of experience have made perfor-
mance reviews less contentious and more collegial and productive. His staff said
he is open and fair and clearly supports Equal Employment Opportunity and civil
rights objectives. The Office of Inspector General (OIG) saw the need for more
dialogue between the two parts of the Office of Performance Review (i.e., the
performance review staff and the research staff). Expanded communication will
ensure analysts in both disciplines will take greater advantage of one another’s
expertise. OIG informally recommended that the director conduct staff meetings
more regularly to ensure good communication.

      The director balances a heavy workload that includes time-consuming adminis-
trative responsibilities that could be handled by an administrative staff. In the five
and a half years that he has been in his position, there have been several changes in
administrative staffing, including the recent detail of two personnel from other
offices. The director outlined for OIG his plans for distributing administrative
work effectively after the departure of these detailed employees. OIG counseled
him to proceed with his plans. He is also assigned other work on external initia-
tives. Despite this workload, he has extended the performance review process to
the Office of Policy.




OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006   7 .

                                       UNCLASSIFIED
                              UNCLASSIFIED





8 .   OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006


                              UNCLASSIFIED
                                       UNCLASSIFIED





                         PERFORMANCE REVIEW


     IBB’s 1999 Manual of Administration and Operations defines the responsibili-
ties of the Office of Performance Review. The manual states that the office is to
conduct annual reviews and periodic spot checks of VOA and OCB broadcasts by:
1) evaluating programs for conformity with the VOA Charter, the VOA Program-
ming Handbook, accepted journalistic standards, and other relevant guidelines; 2)
evaluating program content, presentation, and delivery; 3) hosting formal program
review discussions based on staff analyses and independent research that relevant
IBB elements attend; 4) developing recommendations to improve programs; and 5)
monitoring compliance with recommendations. In November 2000, BBG agreed
that IBB management should be accountable for implementing the action plans that
derive from the annual reviews.



RESEARCH
    About three months before a performance review is scheduled, the Research
Director and his staff develop a research plan for a research contractor regarding
the particular language service. The research follows industry standard methodolo-
gies for broadcast analysis. A week before the program review, the research analyst
and the research contractor meet with the representatives of the language service
to discuss research findings.

    The research, in the country under study, includes quantitative, qualitative, and
evaluative results. The 50-page quantitative opinion survey is provided to a
population sample of a size appropriate to the country or region, ranging from
1,500 to more than 4,000 persons. The qualitative portion captures a seven-person
focus group’s reactions. Focus group members listen to and/or view programs and
discuss them. The focus groups do not represent majority opinions; however, they
provide insight into listeners’ and viewers’ impressions and may suggest new
quantitative questions for future survey questionnaires.

     The evaluative portion of the research uses a seven- or eight-person panel that
listens to programs for a week and scores them daily. In addition, there are usually
control listeners outside of the target country, who also listen to and score the


OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006   9 .

                                       UNCLASSIFIED
                                     UNCLASSIFIED




       programs. The control panels understand the subject country’s language and
       culture, the role of international broadcasting in the target country, and BBG’s
       mission.



       PERFORMANCE REVIEW PROCESS
           The Office of Performance Review’s analysts review several weeks of pro-
       grams, analyzing program logs for balance, timeliness, diversity, and compliance
       with the VOA Charter. They also listen to the language services’ broadcast produc-
       tions and interview service broadcasters to understand problems and additional
       support needs. Before the performance review meeting, the office compiles and
       distributes research, and content and production reports. The Office of Perfor-
       mance Review’s analysts also meet with VOA and OCB senior program manage-
       ment to set the meeting agenda.

       Performance Review Meeting

           The review meeting is a round-table session that lasts about three hours. It
       begins with the Office of Performance Review director’s remarks and language
       service directors’ comments. Next, in a sequence appropriate to the service and its
       target audience, the researchers present their findings and suggest implications;
       then each support entity discusses its area of responsibility, including program
       placement, marketing strategies and requirements, signal transmission, and Internet
       activity.

           The content analysis portion of the review discusses news handling, target area
       coverage, feature material, music and entertainment programming, original televi-
       sion or simulcast program content, and policy presentation and discussion. The
       production analysis of the review addresses voices, pace and style, music, visual
       quality, and other broadcast requirements. Throughout the meeting, attendees
       propose action items for the language services and support elements.

           Within 10 days of the review meeting VOA’s director or alternate and the
       language service division directors, service chiefs, and performance review staff
       attend a meeting that defines an action plan, based on financially and technically
       feasible items. Three months later, there is a follow-up meeting to determine the
       outcomes. Finally, the performance review staff sends an action item report to
       VOA, IBB, and BBG.



10 .         OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006


                                     UNCLASSIFIED
                                       UNCLASSIFIED



     The action items resulting from the performance review may be directed to
VOA, OCB, IBB’s support elements, or BBG. Items vary greatly and cover a wide
scope of activity. Action items may be specific; for instance, an item may direct a
language service to monitor broadcast volume or adjust program formats to fit
affiliates’ needs. Action items could target strategic goals and request policy-
related direction from BBG. An action item for the Office of Marketing and
Program Placement may suggest training for broadcasters from affiliates, and an
action item for the Office of Engineering might ask engineers to help a service
solve technical issues, cooperate with a service to monitor broadcast quality, or
solve information technology problems. An action item could also ask VOA’s
News Division to produce more material for a location.

    Most of the VOA language service chiefs and the OCB director told OIG that
performance review, or quality assessment, is necessary. They appreciated the
opportunity to hear objective views, particularly when there is little time for plan-
ning during the busy pace of day-to-day broadcasting. They also said performance
review meetings provide an opportunity for language services and support elements
to address issues directly with each other. OIG observed that the collegial atmo-
sphere fosters a willingness to resolve problems on the spot.



COMPLIANCE CONCERNS
    According to the Office of Performance Review, ensuring compliance with all
of its action items is a challenge. The 2004 compliance report indicates an 81
percent compliance rate, including recommendations directed to language services
and the other support elements. OIG generally considers 81 percent a good rate;
however, these action items evolve from consensus among the involved elements,
and OIG therefore expects a higher compliance rate. Even the Performance Re-
view analysts believe the compliance rate casts doubt on the reviews’ effectiveness.
Most support elements and the language services do implement action plan items,
but only if they involve little or no cost, as many action items do. OIG could find
no relationship between action items and budget decisions. The need for an
element’s compliance with an action item (recommendation) did not necessarily
translate into changes in its budget or resource planning. Even within existing
budget constraints, however, prioritizing action items that have not been addressed
or completed and continuing to monitor compliance after the three-month limit
would help ensure IBB management is kept informed and maintains its attention on




OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006   11 .

                                       UNCLASSIFIED
                                     UNCLASSIFIED




       the most important recommendations. In turn, if IBB provided BBG with informa-
       tion about significant outstanding action items, BBG would be aware of recom-
       mendations with budget implications that may have been carried over and warrant
       BBG budget attention.


          Recommendation 1: The International Broadcasting Bureau should request
          that the Office of Performance Review provide it with a quarterly list of the
          most significant outstanding action items. (Action: IBB)



          Recommendation 2: The International Broadcasting Bureau should priori-
          tize the significant outstanding action items and provide the information to
          the Broadcasting Board of Governors for consideration during the annual
          Language Service Review. (Action: IBB)




       PERFORMANCE REVIEW SCORING
           Performance scores are derived from research information and from estab-
       lished, uniform criteria that measure effectiveness and quality. IBB analysts and
       external listeners (participants in research surveys and other private reviewers)
       measure broadcast content and production values for their scores. Total scores are
       weighted to assign greater value to broadcast content and external evaluations than
       to broadcast production and IBB analysis. (See Table 1.) Concerns have been
       raised regarding the performance review analysts’ lack of familiarity with the
       language of the broadcast service under review.
       Table 1: Program Content Compared to Program Production Values

           Content (percent)                                        Production (percent)
         External control listener        10                     External control listener             10
         Listener panel                   25                     Listener panel                        10
         Internal analysts                30                     Internal analysts                     15


           Listener panels and control listeners evaluate performance in a narrative format
       and quantitatively. The panels also assign scores for their impression of journalistic
       quality, content, and presentation. Performance review analysts use the same 1-to-
       4 rating scale (see key) and, like listener panels, assign a score, based on content



12 .         OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006


                                     UNCLASSIFIED
                                       UNCLASSIFIED




and production criteria. These scores are combined by BBG staff and included in
the language service review and OMB’s Program Assessment Rating Tool.

    The Office of Performance Review has posted written procedures on IBB’s
Intranet outlining its step-by-step analysis process. Nevertheless, representatives
of BBG’s language services said they are concerned about the subjective nature of
                                               the scores. Although analysts follow a
                                               process, they must ultimately assign a
           Table 2: Scoring Key
                                               quantitative score through qualitative
          (Range from 0 to 4)
                                               analysis. As Table 2 indicates, the
 Poor                               0- 1.3     difference between a 2.6 and a 2.7
 Poor to Fair                    1.4 - 1.6     score is very important to the rating
 Fair                             1.7 - 2.3    of a service (“Fair to Good” versus
 Fair to Good                    2.4 - 2.6     “Good”), but represents a nearly
 Good                            2.7 - 3.3     intangible difference in a subjective
 Good to Excellent               3.4 - 3.6     decision. In a few cases, language
 Excellent                       3.7 - 4.0     service officials mistakenly believe
                                               the 2.6 score has caused reduction or
elimination of a service. The Office of Performance Review has said that its
scores play no part in those decisions. OIG believes that the scores are less impor-
tant than the reviewed entity’s efforts to implement action items and suggestions.

Multimedia Capability

    BBG is moving from broadcasting primarily via short-wave radio to using FM
broadcasting, television, the Internet, and other new technologies. The Office of
Performance Review is attempting to improve its capability to review television
and has been developing standards for evaluating television programming. Pres-
ently, the performance reviews do not reflect all of the language services’ activities
and innovations regarding news distribution, including the use of computer-based
technologies and book distributions. BBG must provide up-to-date standards
regarding the use of new media and disseminate the standards to broadcasters and
evaluators. Therefore, the outdated 1991 VOA Programming Handbook should be
rewritten.


   Recommendation 3: The International Broadcasting Bureau should rewrite
   its 1991 Voice of America Programming Handbook to address standards for
   television and other news media and place the handbook on the Broadcasting
   Board of Governors’ Intranet site. (Action: IBB)



OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006   13 .

                                       UNCLASSIFIED
                                     UNCLASSIFIED



       Spot Checks

            The Office of Performance Review occasionally conducts spot checks of
       language service broadcasts in response to senior management requests. These
       requests are generated by complaints from listeners, foreign governments, or IBB
       entities. The requestor may ask for analysis of impartiality or journalistic quality,
       raise management issues, or request a translation for a separate review. The Office
       of Performance Review frequently contracts outside language-qualified reviewers
       and translators for these assessments, which may dispute the assessments offered
       by the office in an earlier annual review. For example, a foreign government re-
       cently complained about biased reporting to a U.S. embassy. When the
       Department’s concerns caused BBG to request a spot check, the Office of Perfor-
       mance Review brought in three locally hired, language-qualified reviewers who
       listened to nearly 30 hours of broadcast tapes from the time-frame specified in the
       complaint.

       Evaluating Foreign Language Broadcasting

            Using analysts who do not speak the broadcast language to make assessments
       and assign scores is a contentious issue. Many representatives of VOA language
       services said they believe that, if analysts do not understand the broadcast lan-
       guage, they cannot fully evaluate the broadcast. Even lacking language fluency, an
       experienced analyst can assess a program using radio broadcast production quality
       criteria, including clarity of audio, use of music, length of individual items, and
       pace and liveliness, among others. Broadcast program logs can reveal a language
       service’s thematic program balance, the currency of its broadcasts, the amount of
       local program content it uses, and other factors. Analysts from the Office of
       Performance Review said that if a question arises requiring word for word under-
       standing, they can request a back translation of the broadcast into English or they
       can contract with a language-qualified reviewer to address all of the quality criteria
       for evaluating radio broadcasts. Some representatives of the grantee broadcasters
       and other experts told OIG that the analysts’ review of program logs, area exper-
       tise, broadcast experience, and awareness of production values address the great
       majority, but not all, of the analytical criteria.

           In contrast to the Office of Performance Review’s system where knowledge by
       IBB analysts of the language is not required to review a broadcast, RFE/RL uses a
       panel of three staff members and a contractor with language fluency to conduct
       reviews, and RFE/RL provides them with English translations of the broadcasts if
       a panel member does not speak the language. Office of Performance Review


14 .         OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006


                                     UNCLASSIFIED
                                             UNCLASSIFIED



analysts occasionally ask for translations and/or use language experts to assist in
evaluating broadcasts.

    Most of the other broadcast entities have developed review methodologies
similar to those the Office of Performance Review uses. For instance, RFE/RL
uses similar procedures but also uses internal analysts, whether or not they are part
of the broadcast service, and often translates broadcast material into English.
Language service officials believe the differences among the reviewing processes
may not afford BBG comparable data. The differences among reviews for all
broadcast entities have not been fully addressed, but, since OIG found that perfor-
mance review scores are not key to the BBG’s annual language services review and
resulting budget or other decisions, there may be no urgency to standardize perfor-
mance review methodologies at this time. RFE/RL’s use of back-translations and
language-qualified co-reviewers warrant consideration in any such review.



PERFORMANCE REVIEW SCORES AND BUDGETING
    Performance review scores have a minimal effect on the budget. Strategic
national foreign policy priorities drive BBG’s budget. In a December 2004 Memo-
randum Report,2 OIG said BBG had made progress in aligning its budget process
with strategic planning. One of BBG’s goals is to enhance programs and create
new ones to broadcast significant information to audiences the United States has
identified as necessary to its interests. Given this goal, quality may be less impor-
tant than reaching that audience.

    Performance reviews should be viewed as quality assessments that may show a
need for improvements. In announcing its FY 2007 budget, BBG said that pro-
posed language service reductions were “not a reflection of programming quality.”
For BBG to respond efficiently to the nation’s most immediate and vital national
security challenges, BBG said it was necessary to make some reductions to support
priorities.

    Performance review scores for VOA and OCB, however, indicate that their
services generally exceed quality goals, allowing budget decisions to be based on
strategic priorities and not scores. However, changing priorities determine budget
outcomes and language services are often not informed about the criteria for those
decisions.

2
  Review of the Broadcasting Board of Governors’ Progress in Linking its Budget Process and Strategic Planning (Report
Number IBO-A-05-01, dated December 2004)


OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006                      15 .

                                             UNCLASSIFIED
                                     UNCLASSIFIED



       Language Service Reviews

           Each year’s budget decision process is informed by BBG’s Language Service
       Reviews. Foreign policy objectives are primary issues for budget decisions for BBG
       and OMB. OMB’s analyst said that performance review scores are a minor factor
       in making budget decisions and that the primary budget drivers are the results
       regarding Government Performance and Results Act of 1993 goals, the Perfor-
       mance and Accountability Report’s Program Assessment Rating Tool, and, most
       importantly, strategic national priorities.

           The Language Service Reviews are based on research done within the country
       or region the language service is attempting to reach and other factors that IBB
       controls. Aside from performance review scores, there are 15-to-20 factors in-
       cluded on the one-page language service review documents. These factors include:
          •	 audience reach,
          •	 signal quality,
          •	 the number of adults listening to and or watching broadcasts at least once
             each week,
          •	 the percent of the elite or best-educated adults who listen or watch,
          •	 the percent of the population who recognize the station,
          •	 the credibility of the broadcast,
          •	 total budget,
          •	 cost per listener,
          •	 number of hours of on-air broadcasts, and
          •	 number of affiliates.
           The documentation also contains a discussion of other evaluation factors,
       including the country’s political stability, the availability of competing broadcasters,
       the popularity of certain media, and audiences’ access to media.

          According to BBG, because U.S. international broadcasting uses different
       approaches for different markets, it is difficult to make country-to-country or
       broadcast-to-broadcast comparisons. For example, some countries forbid news
       broadcasts, and others forbid programs explaining U.S. policy or coverage of local
       news. In some countries, research is also forbidden, tightly restricted by govern-
       ment policies, or impeded by war or hostile conditions. Consequently, no single
       measure guides the resulting budget decisions.



16 .         OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006


                                     UNCLASSIFIED
                                       UNCLASSIFIED





                       RESOURCE MANAGEMENT


    The Office of Performance Review staff includes the director, a research
director, nine performance review analysts, three research analysts, and two sup-
port staff, including one on temporary detail. The office’s 2006 budget includes
$1.872 million for salaries and benefits and $1.923 million for general operating
expenses including $25,000 for travel, $11,000 for talent, $7,000 for office materi-
als and services, and $1.880 million for research, including travel, contracting, and
special research outside of BBG’s central research contract.

    The Performance Review staff is generally satisfied with the IBB Office of
Administration’s support but is unhappy with its temporary relocation to the
basement, although that move is temporary. Some analysts believe more clerical
support is needed, but the director prefers to maintain the current staffing. At the
time of this inspection, one administrative staff member was working on temporary
detail in another office. Two administrative employees, currently on detail to the
Office of Performance Review, will leave the office when their details are com-
pleted.

   Office of Performance Review analysts have diverse educational backgrounds
and differing area and broadcasting experience. They are serious and enthusiastic
about their work, and their morale is good. Each of the analysts has worked in U.S.
government broadcasting.

     The review analysts are primarily strong in radio broadcast review; however,
the director has identified the need to build more expertise in television review
because of BBG’s increasing emphasis on television broadcasting. He is consider-
ing hiring a senior television producer to address this need; however, there is no
funding for this position, and such action will only be possible when existing staff
depart or retire.

    OIG found most position descriptions are out of date; one is dated 1990 and
others are dated in the late 1990’s. For sound human capital development, the
office should ensure its position descriptions reflect its current staff capabilities
and help it meet projected needs in television and other media. The director should
update position descriptions to reflect actual staff duties, which may indicate some




OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006   17 .

                                       UNCLASSIFIED
                                     UNCLASSIFIED




       personnel have developed television and Internet evaluation skills. The office in
       addition should take advantage of attrition to update position descriptions for use
       in hiring candidates who can provide greater television and Internet evaluation
       skills.


          Recommendation 4: The International Broadcasting Bureau should require
          the Office of Performance Review to review and rewrite all position descrip-
          tions to reflect current duties and have them reviewed for reclassification.
          (Action: IBB)




       INFORMATION MANAGEMENT
           The Office of Engineering and Technology, Computing Services Division,
       provides timely and effective information technology support. These services
       include systems development and maintenance, network infrastructure and desktop
       support, web site development, application and systems training and assistance,
       and technology and information management security.

           The Office of Performance Review uses its Intranet web site to coordinate,
       communicate, and disseminate research reports, program analyses, and review
       notes including action plans. The action plan section of the web site collects
       information about the 44 language service programs that are in preparation for
       review. Although the support is timely and responsive, it is performed in an ad hoc
       manner. Future enhancements and the need for additional services may require a
       more formal process.




18 .         OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006


                                     UNCLASSIFIED
                                       UNCLASSIFIED





                   FORMAL RECOMMENDATIONS


Recommendation 1: The International Broadcasting Bureau should request that
  the Office of Performance Review provide it with a quarterly list of the most
  significant outstanding action items. (Action: IBB)

Recommendation 2: The International Broadcasting Bureau should prioritize the
  significant outstanding action items and provide the information to the Broad-
  casting Board of Governors for consideration during the annual Language Ser-
  vice Review. (Action: IBB)

Recommendation 3: The International Broadcasting Bureau should rewrite its
  1991 Voice of America Programming Handbook to address standards for televi-
  sion and other new media and place the handbook on the Broadcasting Board of
  Governors’ Intranet site. (Action: IBB)

Recommendation 4: The International Broadcasting Bureau should require the
  Office of Performance Review to review and rewrite all position descriptions to
  reflect current duties and have them reviewed for reclassification. (Action:
  IBB)




OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006   19 .

                                       UNCLASSIFIED
                               UNCLASSIFIED





20 .   OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006


                               UNCLASSIFIED
                                       UNCLASSIFIED





                INFORMAL RECOMMENDATIONS


Informal recommendations cover matters not requiring action by organizations
outside of the inspected unit and/or the parent regional bureau and are not subject
to the OIG compliance process. However, any subsequent OIG inspection or
onsite compliance review will assess the mission’s progress in implementing the
informal recommendations.

There is inadequate communications among the Office of Performance Review
and the Office of Research analysts. Greater communication among them would
strengthen cooperation and take advantage of their combined strengths.

Informal Recommendation 1: The Office of Performance Review should
conduct regularly scheduled officewide staff meetings.




OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006   21 .

                                       UNCLASSIFIED
                               UNCLASSIFIED





22 .   OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006


                               UNCLASSIFIED
                                       UNCLASSIFIED





                             PRINCIPAL OFFICIAL


                                                        Name                            Arrival Date
Director, Office of Performance Review                  John E. Lennon                      04/2000




OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006    23 .

                                       UNCLASSIFIED
                               UNCLASSIFIED





24 .   OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006


                               UNCLASSIFIED
                                       UNCLASSIFIED





                                  ABBREVIATIONS

BBG                                   Broadcasting Board of Governors
IBB                                   International Broadcasting Bureau
OCB                                   Office of Cuba Broadcasting
OIG                                   Office of Inspector General
OMB                                   Office of Management and Budget
RFA                                   Radio Free Asia
RFE/RL                                Radio Free Europe/Radio Liberty
VOA                                   Voice of America




OIG Report No. ISP-IB-06-37, The Int’l Broadcasting Bureau’s Office of Performance Review, May 2006   25 .

                                       UNCLASSIFIED
